<html>
<title> - [H.A.S.C. No. 113-42]NATIONAL DEFENSE AUTHORIZATION ACT FOR FISCAL YEAR 2014 AND OVERSIGHT OF PREVIOUSLY  AUTHORIZED PROGRAMS</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 113-42]
=====================================================================

                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

          SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES HEARING

                                   ON

                            FISCAL YEAR 2014

                      ARMY MODERNIZATION PROGRAMS

                               __________

                              HEARING HELD

                             APRIL 26, 2013


                                     
[GRAPHIC] [TIFF OMITTED] 
                                     



                  U.S. GOVERNMENT PRINTING OFFICE
80-771                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              SUBCOMMITTEE ON TACTICAL AIR AND LAND FORCES

                   MICHAEL R. TURNER, Ohio, Chairman

FRANK A. LoBIONDO, New Jersey        LORETTA SANCHEZ, California
JOHN FLEMING, Louisiana              MIKE McINTYRE, North Carolina
CHRISTOPHER P. GIBSON, New York      JIM COOPER, Tennessee
JON RUNYAN, New Jersey               JOHN GARAMENDI, California
MARTHA ROBY, Alabama                 RON BARBER, Arizona
PAUL COOK, California                DANIEL B. MAFFEI, New York
JIM BRIDENSTINE, Oklahoma            JOAQUIN CASTRO, Texas
BRAD R. WENSTRUP, Ohio               TAMMY DUCKWORTH, Illinois
JACKIE WALORSKI, Indiana             WILLIAM L. ENYART, Illinois
MAC THORNBERRY, Texas                PETE P. GALLEGO, Texas
WALTER B. JONES, North Carolina      MARC A. VEASEY, Texas
ROB BISHOP, Utah
                 John Wason, Professional Staff Member
                  Doug Bush, Professional Staff Member
                          Julie Herbert, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Friday, April 26, 2013, Fiscal Year 2014 Army Modernization 
  Programs.......................................................     1

Appendix:

Friday, April 26, 2013...........................................    25
                              ----------                              

                         FRIDAY, APRIL 26, 2013
              FISCAL YEAR 2014 ARMY MODERNIZATION PROGRAMS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Sanchez, Hon. Loretta, a Representative from California, Ranking 
  Member, Subcommittee on Tactical Air and Land Forces...........     2
Turner, Hon. Michael R., a Representative from Ohio, Chairman, 
  Subcommittee on Tactical Air and Land Forces...................     1

                               WITNESSES

Barclay, LTG James O., III, USA, Deputy Chief of Staff, G-8, U.S. 
  Army...........................................................     3
Phillips, LTG William N., USA, Military Deputy to the Assistant 
  Secretary of the Army (Acquisition, Logistics, and Technology), 
  U.S. Army......................................................     5

                                APPENDIX

Prepared Statements:

    Barclay, LTG James O., III...................................    29
    Phillips, LTG William N......................................    37

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Barber...................................................    51
    Mr. McIntyre.................................................    51
    Ms. Sanchez..................................................    51

Questions Submitted by Members Post Hearing:

    Ms. Duckworth................................................    55
    Mr. LoBiondo.................................................    55
    Mrs. Roby....................................................    56
    Mrs. Walorski................................................    57
              FISCAL YEAR 2014 ARMY MODERNIZATION PROGRAMS

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
              Subcommittee on Tactical Air and Land Forces,
                            Washington, DC, Friday, April 26, 2013.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
room 2118, Rayburn House Office Building, Hon. Michael R. 
Turner (chairman of the subcommittee) presiding.

 OPENING STATEMENT OF HON. MICHAEL R. TURNER, A REPRESENTATIVE 
  FROM OHIO, CHAIRMAN, SUBCOMMITTEE ON TACTICAL AIR AND LAND 
                             FORCES

    Mr. Turner. The Tactical Air and Land Forces Subcommittee 
meets today in open session to receive testimony on fiscal year 
2014 Army modernization programs.
    Before we get started on today's hearing, I just want to 
take the opportunity to thank the ranking member and all of the 
members of the subcommittee for their attendance and 
participation. In the hearings we have held to date we have had 
very good participation even though today is the last day 
before recess. So there are lots of conflicts on the Hill as 
everyone is trying to get additional meetings in. We have had 
just great support from the members of the subcommittee.
    Members have been actively engaged on these important 
issues, as was demonstrated by the multiple rounds of questions 
that we have had at our hearings. Also members who are not able 
to attend today because of the multiple conflicts that are 
happening on Capitol Hill will have the ability to submit 
questions for the record.
    At one of our hearings we learned about the challenges of 
reducing the weight burden of critical equipment that our 
soldiers and marines currently have to carry into combat, and 
Ms. Sanchez and Ms. Tsongas raised some concerns about 
providing body armor specifically designed for women. During 
this hearing we learned that the Army was making positive 
progress in this area and this is one of the many issues that I 
believe we will discuss in our subcommittee mark.
    Turning to today's hearings, I know that the Army faces a 
number of significant modernization challenges based on the 
current budget environment. I was recently asked during a visit 
to a production facility in Arizona, ``How does the Army choose 
between resetting its current equipment and modernizing for the 
future?'' The answer, of course, is that we have to do both. 
The challenge based on threats and capabilities gaps is how do 
you prioritize and go forward with a balanced approach.
    I have two short comments about the Abrams tank program and 
the Ground Combat Vehicle. Regarding Abrams, I know that the 
Army believes that the foreign military sales, FMS, alone is 
enough to keep the tank upkeep line viable until 2018. Congress 
over the last few years has taken the position that no funding 
for the upgraded line was an unacceptable level of risk to 
assume and that the Abrams upgrade line should include both FMS 
and minimum level of U.S.-based workload. I hope that you will 
work with Congress to sustain this unique and critical 
capability, and I look forward to further discussing this issue 
with you over the course of the next couple of months.
    The Ground Combat Vehicle is one of the Army's top 
modernization programs. The program, which is just beginning 
development, will eventually replace the Bradley Fighting 
Vehicle. I think most of us on the subcommittee support the 
Army's need to modernize. Our oversight challenge is to ensure 
that the Army is executing an acquisition strategy that 
minimizes the risk to the Government and in turn to the 
taxpayer. I understand that the Army's recent plan is to down-
select to one contractor at the beginning of the engineering, 
manufacturing and development phase, EMD, instead of funding 
two contractors all the way through EMD.
    My concern is that one of the many lessons learned that has 
been reported by the Government Accountability Office is the 
issue of programs entering the EMD phase too early without 
enough knowledge can cause significant difficulty. Knowledge is 
defined by the combination of technology maturity and a 
thorough understanding of requirements and realistic cost 
estimates. In this case we need to ensure that the Army has 
enough knowledge before they downselect to one contractor in 
order to minimize the cost, schedule and performance risk to 
the Government and the taxpayer.
    Before we begin, I would like to turn to my good friend and 
colleague, Loretta Sanchez, for any comments she would like to 
make.

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON TACTICAL AIR AND 
                          LAND FORCES

    Ms. Sanchez. Thank you, Chairman Turner. You went to 
Arizona without me? Okay.
    Welcome, gentlemen, and thank you for being before us 
today. The hearing today is for the fiscal year 2014 Army 
budget request for equipment, research, development, and 
procurement. After many years of additional billions of dollars 
of procurement funding through supplemental appropriations, the 
Army now faces the difficult task of doing modernization with 
very little OCO [Overseas Contingency Operations] funding and 
declining baseline budgets. I know it is a difficult thing to 
do, and I don't want to beat a dead horse, but there have been 
several Army programs one after the other that have been 
canceled due to cost overruns and changing requirements or 
shifting priorities. I think we all understand that.
    So I think it is just difficult to have a lot of confidence 
in what is going on with the forward-looking programs that we 
have within the Army. I don't think it is completely the Army's 
fault. I know that years with different administrations, 
different Army leaders, different visions, I know that before 
9/11 the Army's focus was on rapid deployment and getting 
lighter to move faster, and then the realities of the wars in 
Afghanistan and Iraq pushed the Army to add armor, more weight, 
to have more platforms in order to make them more survivable 
against IEDs [Improvised Explosive Devices] and other threats. 
And due to advances in technology, the Army has faced dilemmas 
similar to the one it now faces. So one would ask how does the 
Army proceed?
    I think it is a really soul-searching sort of, what does 
the next battle look like? What is the next war going to be? 
And I think that one of the things that we can do is to think 
of the Army's intention to focus modernization on the 
individual soldier such as the improved body armor. I think 
that is a good starting point. And I think no matter what kinds 
of wars are fought, troops will need excellent communications 
and intelligence. So the Army's effort to build a battlefield 
Internet down to the individual soldier I think is also a good 
idea.
    One thing that the Army brings to the fight that no other 
service can is its huge fleet of helicopters. Again, regardless 
of the type of wars that we are going to be engaged in, I think 
we can say there is going to need to be a continued emphasis to 
have that.
    But I am less comfortable with where the Army is heading in 
some of its other modernization plans. The Ground Combat 
Vehicle, as Mr. Turner suggested, is a very ambitious program. 
It could also prove to be very expensive. So I think we are 
definitely going to drill down on that, not only today but as 
we move and see it for the future.
    So I am anxious to hear what you have to say and I will 
submit the rest of my comments for the record, Mr. Chairman.
    Mr. Turner. Thank you. I would like to welcome our 
witnesses, Lieutenant General James Barclay, Deputy Chief of 
Staff for the Army, G-8, and Lieutenant General William 
Phillips, Military Deputy to the Assistant Secretary of the 
Army, Acquisition, Logistics, and Technology.
    Gentlemen, thank you for your service. We look forward to 
your message today.
    General Barclay.

  STATEMENT OF LTG JAMES O. BARCLAY III, USA, DEPUTY CHIEF OF 
                     STAFF, G-8, U.S. ARMY

    General Barclay. Chairman Turner, Ranking Member Sanchez, 
members of the Subcommittee on Tactical Air and Land Forces, I 
want to thank you for this opportunity to discuss the Army's 
fiscal year 2014 President's budget request as it pertains to 
our modernization. On behalf of Secretary McHugh and General 
Odierno, I would also like to take this opportunity to thank 
you for your support and demonstrated commitment to our Army 
during the past decade of war.
    As we all know, we have challenges ahead and our number one 
priority remains supporting our warfighters in Afghanistan. We 
owe these brave soldiers nothing less. But I do want to 
emphasize that we need your support now more than ever because 
we are entering an incredibly turbulent time for equipping our 
units.
    Over the next 3 years we will continue to deploy and 
redeploy units to combat in Afghanistan and other locations. We 
are also going to start to retrograde of theater equipment that 
is in Afghanistan. We also have to keep Korea ready to fight 
and reestablish our global and regional response forces. At the 
same time we are also resetting the equipment that we are 
bringing home from a decade-plus of war. And all the while 
this, we have to remain prepared for the defense support to 
civil authorities and other homeland defense priorities, and we 
all have to do this with substantially less money than we had 
planned due to sequestration and other budget reductions. 
Failure to get this right will impact the equipment readiness 
of our units for years to come.
    Throughout our history we have drawn down our Army after 
every war. What is different this time is that we are drawing 
down our Army before the war is over. The previous drawdowns 
have resulted in a less-than-ready and hollow force. 
Unfortunately, if we proceed with the full effects of 
sequestration we will once again have a less-than-ready and 
hollow force.
    The effects on our equipment modernization will be dramatic 
because in the near term we cannot reduce force structure nor 
can we reduce the cost of the war quick enough to pay the 
Army's share of sequestration. Therefore, equipment 
modernization and readiness will be reduced twice, once for the 
proportional share and then again to pay for the continuing war 
costs and to meet other bills.
    Sequestration will result in delays to every one of our 
modernization programs, to include the Ground Combat Vehicle, 
the network, our helicopters, and the Joint Light Tactical 
Vehicle, in most cases increasing the cost. It will also create 
an inability to reset our equipment employed in years of war 
resulting in a significant delay in equipment readiness of six 
divisions. All of these effects are in addition to the changes 
that we have already made in the fiscal year 2014 President's 
budget request that we are going to talk about today.
    In the coming months the Administration will present to 
Congress the fiscal year 2014 overseas contingency operations 
funding request. While this request is not yet final, I want to 
thank the Congress for your previous support, providing us with 
the necessary funding to equip our young men and women going to 
war and for supporting the reset of their equipment upon 
return.
    I would like to point out that the costs of war do not go 
down immediately as our soldiers return. In fact, we will need 
your support for funding the reset and replacement of our 
equipment for 3 years beyond 2014. Failure to do this would 
have a catastrophic effect to unit readiness. We are all aware 
of the strains on the Federal Treasury and the desire to reduce 
war funds as soon as our soldiers return home. I would ask that 
you support our future requests for the critical reset of our 
equipment.
    In March of this year Secretary McHugh and General Odierno 
published their Army Equipment Modernization Strategy. This 
strategy focuses on our efforts on supporting our soldiers and 
small unit formations while maintaining our advantages to deter 
and defeat potential adversaries. We do this by identifying 
achievable requirements, applying best practices in acquisition 
and sustainment and seeking incremental improvements, all while 
harnessing network enabled capabilities to solve near-term 
needs, and we are doing this while investing in military unique 
revolutionary and evolutionary technologies to solve future 
needs.
    The key to this strategy is procuring equipment that is 
versatile and tailorable yet cost-effective and affordable. The 
centerpiece of our equipment modernization program is the 
soldier and the squad. Our investment plan provides our small 
units with a range of equipment, including individual and crew-
served weapons, next-generation optics and night vision 
devices, body armor and advanced individual protection 
equipment providing lethality and force protection to the 
soldier and squad.
    In order to provide our soldiers with unparalleled 
advantage, we intend to enhance our equipment with incremental 
improvement by integrating technologies and applications that 
empower, protect, and unburden soldiers and formations by 
improving our network in order to enable decisionmaking across 
the joint force, all the while improving our vehicle fleet 
capabilities by increasing lethality and mobility while 
optimizing survivability and sustainability, and improving our 
aviation platforms with digitization and additional procurement 
of unmanned aviation systems.
    In conclusion, I have been the G-8 of the Army for almost a 
year now, and it is truly an honor for me to be here before you 
today representing the great men and women of our Army. Every 
day in peace and war our soldiers, along with our airmen, 
sailors, marines, and Coast Guard personnel defend our Nation 
and all that it stands for. The state of our Nation's finances 
as well as the financial struggles of our citizens is also on 
our minds. We know they are struggling financially, yet they 
steadfastly provide our soldiers with the resources we need and 
we are grateful.
    Our commitment to you is that we spend each and every 
dollar wisely and only ask for that which we truly need. The 
Secretary and Chief have made this perfectly clear in their 
equipment modernization strategy as they have challenged us to 
be both cost-effective and affordable.
    I look forward to answering your questions today and 
working with you in the future. Thank you.
    [The prepared statement of General Barclay can be found in 
the Appendix on page 29.]
    Mr. Turner. General Phillips.

 STATEMENT OF LTG WILLIAM N. PHILLIPS, USA, MILITARY DEPUTY TO 
 THE ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS, 
                   AND TECHNOLOGY), U.S. ARMY

    General Phillips. Good morning, Chairman Turner, Ranking 
Member Sanchez, and distinguished members of the subcommittee. 
Thank you for this opportunity to testify on the Army's 
modernization and acquisition programs for fiscal year 2014. I 
respectfully request that my written statement be made part of 
the record for today's hearing.
    On behalf of our Army, I thank you for the steadfast 
support to provide our courageous men and women in uniform the 
world-class weapons and systems and equipment. Our soldiers are 
the best equipped in the world, thanks to your extraordinary 
commitment to our Army.
    Up front I would also like to extend my sincere 
appreciation for your support of a number of critical 
acquisition efforts, to include the award of multiyear 
contracts. This action alone will save taxpayers over $2 
billion on the Chinook and Black Hawk helicopter programs.
    Our Army and Army acquisitions face unprecedented fiscal 
and budget challenges. Sequestration is having a devastating 
effect on Army modernization. To best meet the fiscal 
challenges we face, the Army is focused on driving 
affordability and cost-effectiveness in every decision we make 
on every program.
    We remain committed to our modernization strategy which 
begins with the soldier, the most effective weapon on the 
battlefield. The soldier and squad are the foundation of our 
Army and the centerpiece of our modernization program. We will 
equip our squads for tactical overmatch in all situations, we 
will connect soldiers to the network, and we will provide 
vehicles with improved mobility, lethality, and survivability, 
like Ground Combat Vehicle and Joint Light Tactical Vehicle.
    We will provide the soldier and the squad with a range of 
equipment, including individual and crew-served weapons, next-
generation optics, and night vision devices, and the world's 
best body armor. Our squad formations' tactical superiority 
will be enabled by a suite of small unit systems, including 
unmanned aerial systems, ground-based robots, counter-IED 
devices and the latest surveillance systems. We will connect 
the soldier to the Army's network to create a greater 
situational awareness and overwhelming synergy.
    Our combat and tactical wheeled vehicle fleets are being 
developed to connect this more capable squad with the network. 
Our future vehicle fleets, again like Ground Combat Vehicle, 
will also provide increased lethality and mobility to squads 
while optimizing survivability through the use of armor 
packages that can be scaled to meet mission requirements.
    Our modernization efforts are designed to prepare the 
entire force for a complex and uncertain battlefield by putting 
a squad with precise information and overmatch capability in 
the right place at the right time to execute the mission.
    For Army aviation we will continue to successfully modify 
and upgrade and remanufacture existing platforms to extend the 
life of our aircraft and keep our air crews safe. We will 
continue to invest in science and technology at the same time 
to ensure the future fleet.
    Mr. Chairman, I would like to briefly address the defense 
industrial base that you mentioned this morning. The upcoming 
end of combat operations and the changing fiscal environment 
are prompting the Army's commercial and organic industrial base 
to adjust to a new reality of reduced requirements and 
constrained resources. Of great concern to the Army are the 
likely long-term impacts, to include the loss of critical 
skills, the loss of suppliers at all tiers, and an increase in 
the number of single point failures in the supply chain. The 
Army is aggressively evaluating how best to identify and 
preserve critical industrial-based capabilities.
    Mr. Chairman, the Army continues to prioritize sound 
program acquisition management that drives affordable and 
executable requirements and achievable acquisition strategies. 
We have taken specific steps to avert the leading cause of past 
cancellations.
    In addition, the Army has fully embraced the Department of 
Defense better buying power initiatives to address cost and 
schedule risk in programs and achieve better value for the 
taxpayer. In 2012 alone we achieved $370 million in ``should 
cost'' savings across 300 programs. During my 3 years in this 
position, we have made significant improvements to our 
acquisition system.
    In closing, Mr. Chairman and distinguished members of the 
subcommittee, these are challenging and difficult times. I 
thank you again for your steadfast support of our outstanding 
soldiers, civilians, and the families of the United States 
Army, and we welcome the dialogue that we will continue with 
you over our modernization programs. Thank you, sir and ma'am, 
and I look forward to your questions.
    [The prepared statement of General Phillips can be found in 
the Appendix on page 37.]
    Mr. Turner. Gentleman, thank you so much for your comments 
and specifically your comments that relate to the effects of 
sequestration. As you know, the Department of Defense having 
been restrained from planning for sequestration I think has 
inhibited congressional action to set aside sequestration 
because, since we weren't able to tell the public or even 
inform the rest of Congress what the effects of that even some 
of us foresaw, it made it very difficult. So the message now is 
very important, and I appreciate your including that.
    Before I go to my first question, I want to recognize 
General Barclay for a moment. Many times when we are here at a 
hearing we ask for people's professional judgment, being 
unaware of the personal aspects of their insight. I had General 
Barclay and General Phillips in my office and I was very 
pleased to learn from General Barclay that he has one son who 
serves in the Army currently and another who has previously 
served. General Barclay's son, Captain Joe Barclay, was 
seriously wounded by an improvised explosive device in 2006 
while serving in Afghanistan and he is currently medically 
retired. We appreciate his service and dedication. And you have 
another son, Chief Warrant Officer Bill Barclay, who is flying 
Black Hawk helicopters and will be returning from Afghanistan 
very soon.
    I think it is important to recognize and acknowledge both 
your service and the service of your family because so many 
times when we get the professional opinion of those who testify 
before us, we know that it comes not only with just an insight 
and commitment to those in their command, but also their 
country and their family that they are dedicated to. So thank 
you for that service.
    General Barclay. Thank you, sir.
    Mr. Turner. General Barclay, I also want to recognize you 
as an Army aviator and former Commandant of the Army Aviation 
Center at Fort Rucker. So I know that the subject matter of my 
question goes right to the background of your experience.
    The Kiowa helicopter is in desperate need for enhancements 
in order to make it a safer helicopter to fly. Original the 
Army's plan was to replace this helicopter with the Comanche 
helicopter, but that program was canceled. Then the plan was to 
replace the Kiowa with the armed reconnaissance helicopter, but 
that program was terminated. Unfortunately, as a result of 
these terminated programs, very little was done in regards to 
upgrading the Kiowa.
    I understand that currently the Army is in the process of 
deciding whether they should conduct a comprehensive system 
life extension program or proceed with a full and open 
competition based on existing helicopter platforms that would 
have to be modified, called the Armed Aerial Scout Program. I 
believe that regardless of the decision that the Army makes, we 
need to ensure that we are making the Kiowa a safer aircraft to 
fly until a replacement is available.
    General, would you please tell us what the Army's plans are 
to continue to upgrade the Kiowa until a replacement platform 
can be fielded and then provide an update on the current status 
of the AAS [Armed Aerial Scout] program?
    General Barclay. Thank you, Mr. Chairman. You are correct, 
the Army is looking at the modernization and replacement of the 
current Kiowa Warrior. We are currently going through the 
process and hopefully by the late summer, mid-to-late summer, 
based on some of the outcomes of the fiscal guidance we get we 
will make a determination on the way ahead for an Armed Aerial 
Scout or whether there will be a service life extension 
program.
    Those are the two options. But those are not currently what 
we still have to do with the current fleet, because either one 
of those we would not be able to get any of those into the 
field until the mid-to-late twenties, so we have to do 
something with the current fleet.
    We currently have what is called the Cockpit and Sensor 
Upgrade Program, the CASUP program, and that is an obsolescence 
and safety enhancements to the current fleet in order to allow 
it to continue to do the mission that it has within the Army 
until we--regardless of the decision whether we do an Armed 
Aerial Scout or a service life extension program on the current 
fleet. That is our bridge to get us to that point in the 
future, sir.
    Mr. Turner. I appreciate your comment on having a need now, 
because we all know that this is an issue that we are very 
concerned of, those who operate that craft and the issue of 
safety.
    General Phillips, I am very concerned about the Joint 
Systems Manufacturing Center in Lima, Ohio, and the BAE 
facility in York, Pennsylvania. As you know, there has been a 
zeroing out of the Ground Combat Vehicle and the Armored Multi-
Purpose Vehicle programs with perhaps an overreliance on 
foreign military sales. I am very concerned that the assumption 
that these facilities can remain viable specifically of course 
relying on the foreign military sales is such that may need 
congressional action.
    The last 2 years Congress has put funding back in because 
of a lack of belief that foreign military sales alone were 
sufficient or that these facilities could be turned on and off 
like a light switch. Just send everybody home and they will 
come back with the same level of skills and commitment.
    We don't see in your budget any alternative plan. How is it 
that you think that the industrial base will be able to operate 
just on foreign military sales? What is your backup plan if 
that is not the case? And do you also agree that these 
facilities cannot be abandoned and then turned back on again to 
their high level of manufacturing expertise?
    General Phillips. Mr. Chairman, I appreciate your question. 
The industrial base is very important to our Army. The JSMC 
[Joint Systems Manufacturing Center] Lima, Ohio, facility is 
also critically important, and it is not the Army's intent to 
shut down Lima, because it is critical to the industrial base. 
Having said that, the Army actually has more M1A2 [Abrams] 
tanks than it--it is buying more than it actually needs at this 
point.
    If you look back to the fiscal year 2012 budget that we 
received, we still have 67 tanks that are being built and that 
production of those tanks will extend through December of 2014. 
In the last budget that we received from Congress was another 
$181 million also with the potential for between 20 to 24 tanks 
that also would go into Lima as well. That takes us at about 
two to three per month out to about the middle of June, June 
16, maybe toward the end of June 16.
    When you couple that with foreign military sales, and I am 
talking about firm commitments we have from numerous nations, 
there are three nations in particular that have about 373 
vehicles that will be produced at JSMC. And that is going to 
take production well into 2016 and potentially beyond. Those 
are three countries with firm commitments, either foreign 
military sales or through direct commercial sales of other 
vehicles, such as Israel and Emir. Beyond that, there is 
another 466 vehicles beyond 2016 that would potentially take 
production into 2017, 2018, maybe beyond.
    We are also working the ECP [Engineering Change Proposal] 
upgrade for the Abrams tank, and the ECP upgrade will start 
about 2018 in terms of putting production back into JSMC.
    So, sir, to wrap up my comments, we are very concerned 
about the industrial base. We are studying it. We are doing a 
deep dive with our PEOs [Program Executive Officers] and with 
A.T. Kearney, and we are committed to make sure we have the 
right level of workload within JSMC to keep it viable now and 
in the
future.
    Mr. Turner. General, I just want to point out that the 
vehicles that you are talking about that there is funding for, 
we funded. They were not requested by the DOD [Department of 
Defense]. If they had not been funded by Congress, this 
facility would be at risk. If you continue to not fund 
something you are in essence shutting it down. And these are 
not facilities that can be reconstituted. They are Government-
owned, contractor-operated. I mean the Government owns them. 
When we have responsibility for the industrial base there 
should be an understanding that our budgeting, our request for 
vehicles and transitions to new vehicles, should include making 
sure that that asset continues to be viable and operate.
    We are going to continue to look at that. But as you cite, 
oh, we are doing fine, you are only doing fine because we 
intervened. We want you to continue to do fine, and we have 
very serious concerns that your projections are such that, 
again, if you don't fund it, it will shut down. And then we 
lose that capability. We don't have other facilities that have 
that capability. Again, they are Government-owned so there is 
an inherent responsibility I think on the Government's side.
    General Phillips. Congressman, could I comment quickly. It 
is not the Army's intent to shut down JSMC. We are fully aware 
of what capability it has.
    Mr. Turner. Do you acknowledge though that but for 
Congressional funding that facility would be greatly at risk?
    General Phillips. Sir, I agree that it would be at risk, 
but with the foreign military sales that come into the 
facility, it certainly provides workload into 2016 and 
potentially beyond.
    Mr. Turner. One of the things that we are going to be 
looking at to is a greater understanding from DOD as to its 
responsibility to manage its inventory acquisition so we don't 
have these spikes and peaks putting these facilities at risk 
that we own. I know we can work directly with you. I know you 
have a commitment to it, and I appreciate that.
    I turn to my ranking member.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Gentlemen, in fiscal year 2013 the Army asked to receive 
$350 million to procure new JTRS [Joint Tactical Radio System] 
Radios. This is about the JTRS. The fiscal year 2014 budget 
includes about $400 million more for new JTRS Radios. The 
Army's plans for buying these radios have changed quite a bit 
over the last few years. In general the Army has moved away 
from more competition conducted more often with the hope of 
encouraging innovation and driving down the cost.
    I think that it is a good idea overall, but I am very 
concerned that the Army is almost a full year late in providing 
a report to Congress on exactly what the plans are to proceed 
with the various parts of JTRS. Specifically, last year the 
Army was tasked with providing this report by the end of July 
2012, but we still haven't gotten that report. As I mentioned, 
the Army is asking for another $400 million for this.
    So why should this committee authorize any of this funding 
when you are a year late on a report that we asked for?
    General Phillips. Ma'am, I will take that on and then ask 
for General Barclay to join me as well. But we will get the 
report to you. In the interim, I know that my boss, Ms. Shyu, 
sent a series of updates to Congress on where we stood with the 
JTRS program.
    Just a slight bit of history, OSD [Office of the Secretary 
of Defense] managed the program for many years. The Army took 
the program over about 4 years ago. And as we looked at the 
program and where it stood as we brought it into the Army and 
looked at the management of the program and what the official 
program of record was doing, we learned that commercial 
industry in many cases had actually passed the Army up in terms 
of capability meeting many of our requirements. So we purposely 
went after those programs that we thought we needed to cancel 
or terminate, and we did that in the case of the Ground Mobile 
Radio and also the Airborne Maritime/Fixed Station Radio. We 
canceled both of those programs and we are going forward with a 
strategy that we have reported to Congress in a number of 
letters that we are going to execute a full and open 
competition, because we know that industry can produce these 
radios, they can do it cheaper, better, faster than we could 
have done under the official program of record.
    Our intent this year is to issue three requests for 
proposals for three different types of radios within the JTRS 
family of radios under full and open competition so we can 
deliver them faster than what we would have done under the 
official program of record.
    One other comment, too. The JTRS Radios are absolutely 
critical to our network and our network capability. They are 
the ones, ma'am, as you offered in your opening comments that 
connect the soldier. They go down to the soldier level through 
the Rifleman Radio connected up to the platoon and company 
through other series of JTRS Radio, all the way back to the 
battalion and brigade and then it gets back into higher levels 
of Army echelon from there. It is absolutely critical that we 
get those radios and we field them as a part of our overall 
network strategy which is most important for the Army.
    General Barclay. Ma'am, I would just add that, as General 
Phillips has said and I made this in my opening remarks, that 
the soldier and squad are the centerpiece of our modernization 
strategy and it is critical that as we look at that and the 
mission command and the network, and he has already stated it, 
it includes the Nett Warrior, the Rifleman Radio, the Manpack 
Radio, the Joint Battle Command Platform, and then the backbone 
of the tactical network, which is WIN-T [Warfighter Information 
Network-Tactical]. All of that has to be linked, because that 
then gives the soldier and the squad the power they need with 
the equipment they have and the vehicles and survivability and 
mobility to do the missions that we think we are going to have. 
So it is a critical part of our strategy in the future for the 
Army.
    General Phillips. Ma'am, if I could add, I didn't answer 
your question completely and I apologize. We will get you the 
report. The reason we haven't got it to you is we are working 
the AMF [Airborne/Maritime/Fixed] strategy I mentioned earlier. 
The acquisition strategy is going forward to the defense 
acquisition executive and we will get that to you as soon as we 
get the acquisition strategy approved by Mr. Kendall at OSD.
    Ms. Sanchez. Okay. Well, I have several things to say about 
this. First of all, I have worked both as a consultant on the 
outside and as a Government person on the inside, so when we 
talk about a competition, there are always ways to narrow the 
people who can go after a contract. If we are going to take the 
time to do a full and complete competition, and I don't have a 
dog in this fight, I don't have any of these companies, but 
they are around on the Hill and they are talking to everybody, 
I just want to make sure that we get a good piece of equipment 
probably coming out of the commercial sector, as we have 
learned, for a good price. And I want to make sure that the 
type of competition you do allows us to get as good a piece of 
equipment that we need for as reasonable a price as possible. I 
also don't like it when people undersell what they make. 
Companies are in the business to make a profit.
    So I will just say that we have been watching this for a 
while. The fact that this report has not been turned in 
honestly makes me pretty angry because you can tell me, well, 
things are fluid and things are changing and everything, but, 
you know, if I ran my campaign like that, things change all day 
long, I would never get elected. So you must have a plan. You 
must have a plan.
    General Phillips. Ma'am, we do.
    Ms. Sanchez. You are the Army. You should have a plan. And 
we oversee that. So I would like to see it sooner rather than 
later.
    General Phillips. Ma'am, we will bring the plan. It 
includes full and open competition. One thing, we are learning 
a lot from industry. We do an industry day for every RFP 
[Request for Proposal] that we put forward, and industry is 
coming and sharing. Probably many of the things they are 
sharing with you they are sharing with us. The one comment that 
we have heard from them is that NSA [National Security Agency] 
certification for these radios is critical. So we work with 
industry and we are going to refine our proposals to allow more 
time for industry to get that certification. That is one of 
their concerns.
    Your comment is well taken, because we learn a lot from 
competition. We also drive down costs. On the average for these 
radios we will get them cheaper than 20, 25 percent, maybe 
more, than what the original program of record could have done. 
So there is a lot of goodness in the strategy we have. We owe 
you the report, ma'am. We will get that to you.
    [The information referred to can be found in the Appendix 
on page 51.]
    Ms. Sanchez. Thank you. I have one other question, Mr. 
Chairman, if you don't mind.
    In the fiscal year 2014 budget the Army has asked for $608 
million for 42 Apache attack helicopters. However, the 
committee has been given some information that concerns me. To 
be exact, it appears that the Army has been paying for some 
Apache helicopters that are missing their transmissions and 
that can't fly.
    Specifically as of today I am told that there are seven 
Apache helicopters that the Army has already paid more than $8 
million for that are sitting under tarps at the factory waiting 
for a new transmission to get installed. The information given 
to this committee says that this apparent disconnect between 
building the aircraft and having enough transmissions won't be 
fixed until September of 2014.
    So I have several questions. Could you please explain why 
the Army would take delivery of a helicopter and pay for a 
helicopter that can't fly? Why not just tell the contractor no, 
we aren't signing for any incomplete helicopters and make them 
wait to get paid until the entire helicopter is finished? And 
who made this decision to pay for incomplete helicopters?
    General Phillips. Ma'am, first of all, the Army did not 
make that decision in isolation. We worked closely with our 
counterparts in OSD to come to that conclusion that the right 
strategy for the Army was to accept the aircraft. Let me go 
back also, there is an article----
    Ms. Sanchez. So who are your counterparts at OSD and who 
from the Army procurement? Who? I would like names. You don't 
have to name them today, but we would like a list.
    General Phillips. Ma'am, we will provide that to you. But 
the Army acquisition executive and the defense acquisition 
executive.
    [The information referred to can be found in the Appendix 
on page 51.]
    General Phillips. But most importantly, that article is 
inaccurate, the article that I saw a couple of days ago that 
talked about the transmission. The Army is accepting aircraft 
that come off the production line with full equipment inside 
those aircraft. Part of the reason we are taking this strategy 
is we are allowing Boeing to take assets from other 
transmissions as a rotatable pool to get the aircraft into 
flight test. When you get them into flight test it takes about 
20 days. I used to do flight test at Boeing-Philly on Chinook 
aircraft and you do a full-up inspection, inside-outside the 
aircraft, and then a series of test flights to get the aircraft
accepted.
    Every aircraft that we accept from Boeing has 
transmissions, has full equipment, full mission equipment 
packages when we accept the aircraft. We allow Boeing in some 
cases to take that transmission out and put it back into the 
production line as we work with Northstar, who is the 
manufacturer of the transmission, to get as many of those 
transmissions as we can to Boeing so we can limit the number of 
aircraft that on the ramp.
    Seven is about right. The other day I heard that there were 
six aircraft that were still on the ramp. By the way, we will 
be well in December of 2013. We could have more aircraft 
accepted in this manner beyond December 2013, but it depends on 
one thing. We are accepting these aircraft and getting 
transmissions into them as quickly as possible in order to get 
the first unit equipped. That unit is on the rotation schedule 
to go into Afghanistan. We want as many aircraft available for 
that unit as quickly as possible so they can train and get 
ready.
    The other reason that we made this is very important as 
well and it gets back into the industrial base question. When 
you look at the Apache supply chain, there are 41 States and 
over 300 manufacturers that provide parts to Boeing. Boeing is 
simply a place where they build the aircraft. All of the other 
parts come from other parts of the Nation and around the world. 
If we shut down the production line with Boeing it would impact 
supply operations in 41 States and over 300 companies and it 
would also cost us more money. So the best decision for the 
Army and for OSD and for the Apache fleet itself is to accept a 
complete aircraft and then allow Boeing to takes though 
transmissions back in.
    The last comment I would have is we withhold about $900,000 
from Boeing. In doing this, it costs the Government nothing, it 
costs the Army nothing in terms of the strategy we have in 
place, but it does allow us to get the max number of aircraft 
to that unit so they can train and deploy in combat and it 
sustains the critical industrial base.
    Mr. Turner. Jon Runyan.
    Mr. Runyan. Thank you, Chairman, and gentlemen. Again, 
thank you for your service and thanks for being here today.
    Not only sitting on this committee but chairing the 
Veteran's Affairs Subcommittee on Disabilities and Memorial 
Affairs and in my past career in the NFL [National Football 
League], obviously TBI [Traumatic Brain Injury] is something 
near and dear to my heart. As a matter of fact I received an 
email from a former teammate of mine in his mid-forties and has 
ALS [Amyotrophic Lateral Sclerosis] to the point where he 
barely communicate with another human being at this point.
    My question probably is directed more to General Phillips. 
From a material solutions perspective what is the DOD doing to 
try to mitigate exposure to TBI?
    General Phillips. Go ahead.
    General Barclay. Sir, I will let Bill add some to it. I 
just wanted to add from our modernization and how we are 
looking strategy to that. We have made great efforts to make 
sure as we have learned over the last 10-11 years of war the 
impacts of what TBI does to our force. And it is not just at 
the incident and point of impact, it is long-reaching. It is 
something that you have got to ensure that you not only address 
immediately, but also have a plan for the future to do that.
    So within our strategy we have got several different 
initiatives that we are looking at. We are doing the helmet 
sensors inside which record data for blast effects. We are also 
equipping vehicles with sensors inside the vehicle which gives 
the pressure, over-pressure and concussion effects on soldiers 
that go through one of those incidents.
    That data then, it helps us not only with future vehicle 
changes, but it also helps us with the medical side of then 
tracking those soldiers. For instance, that helps record the 
number where a soldier may have had one, two, maybe it is his 
third incident. And then that helps us look at how we are going 
to treat them in the future and it will look at the medical 
aspects of what we need to do to take care of our force and our 
soldiers.
    Then another initiative, and I am sure you are aware of 
this, the Army is teaming with the NFL now because they have 
the same issues we have with TBI, and it is very important that 
we leverage what they are doing and they can leverage what we 
are doing as we try to move forward, because as I said, this is 
not just an event that happens 1 day and 1 or 2 days later you 
are over it. It is something that could affect you for the rest 
of your life. So it is very important for the Army, and as we 
move forward we are teaming with the NFL to try to get at this.
    General Phillips. Sir, I would just add that I am a big NFL 
fan. I was watching the NFL draft last night on ESPN and it was 
good to see that the NFL recognizes our wounded warriors, and 
we have teamed very effectively, as General Barclay just said, 
with the NFL on this.
    I would just add one thing. We have a JTAPIC, is what we 
call it, a Joint Trauma Analysis for Prevention in Combat. It 
works under our Medical Command. That data that comes back that 
Jim just described is analyzed by that team and then we try to 
figure out better ways to improve our equipment to try to 
prevent trauma, a greater trauma. So it is something that we 
are very serious about in doing the right things for our 
soldiers.
    Mr. Runyan. Thank you both for that, because I think 
prevention there, as we see our health care costs grow 
exponentially, the more we can prevent through research, and I 
know we are probably a long way off from figuring it really 
out, because whether you are talking ALS, Alzheimer's dementia, 
they all trace back to TBI at some point. So thank you all for 
that.
    I yield back, Chairman.
    Mr. Turner. Thank you. To give everyone an understanding of 
the order, we have Duckworth, Wenstrup, Garamendi and then 
Gibson. That is probably just enough time to finish the people 
who are currently in their seats before votes if we stick to 
the 5 minutes. So we will go to Duckworth next.
    Ms. Duckworth. Thank you, Mr. Chairman. Gentleman, thank 
you so much for being here this morning.
    Over the course of the last several weeks the Secretary of 
Defense, the Secretary of the Army, and the Chief have all 
testified in front of this committee as to their commitment to 
maintaining the National Guard and Reserves as an operational 
force. In looking at your modernization strategies, I just want 
to throw down as an example the Black Hawk helicopter. Can 
either one of you speak to your plans for modernization of 
``Alpha'' model [UH-60A] Black Hawk helicopters in the Guard 
and Reserve fleets, mostly the Guard?
    General Barclay. Yes, ma'am, thank you for that question. 
As you know, and you stated that the Secretary and Chief have 
made a commitment, and it is not just about COMPO 1 [Active 
Component], COMPO 2 [National Guard], COMPO 3 [U.S. Army 
Reserve], it is about a total Army and a total force. We are 
committed, especially on the aviation side, not only with the 
Black Hawks, and I know as a Black Hawk pilot, I am a Black 
Hawk pilot----
    Ms. Duckworth. Air assault. Just an example. It is what I 
know, so it is what I am focusing on. All the other systems as 
well.
    General Barclay. It is critical to all of us. I mean the 
47s [CH-47 Chinook], the new 47s, the new ``Mike'' model Black 
Hawks [UH-60M], the new ``Echo'' model [AH-64E Apache]. And I 
tell you, you know, the first Mike model battalion was a Guard 
battalion, so we are committed to doing that. But as we look at 
the fielding across Black Hawks, Chinooks, and Apaches, all of 
those fielding schedules are going to slow down.
    Now, it is intermixed among all three COMPOs as we are 
doing that fielding. We are not pushing to the Active because 
we understand the importance and the past 10 years has taught 
us that we have to rely on the National Guard and Reserves, 
especially in the aviation community where half of our aviation 
fleet is in the Reserve Component.
    Ms. Duckworth. I am sorry to interrupt, but since we have a 
limited amount of time before votes. What is the mix? Say over 
the next 3 years, how much of the Active say Alpha model Black 
Hawk inventory or any Black Hawk inventory is being upgraded 
vis-a-vis the Alpha model inventory in the Guard and Reserve? 
My understand is that you are pushing the Guard and Reserve 
modernization to 2025, is that correct?
    General Barclay. We are pushing all to 2025, not just the 
Guard and Reserve. Because of sequestration, all models are 
being extended out to 2025, 2026. Some will get pushed into 
2030. Some of the Apaches will be even into the thirties. So 
all of those are getting pushed. Chinooks not as far because we 
are closer on filling that.
    Just for example, I will tell you in the Reserve, in fiscal 
year 2014 to fiscal year 2015 there is another battalion set 
going from 142 to 172, 172 to 211 and 16. So we are looking 
about a battalion's worth every fiscal year in the Guard or 
Reserve moving. And on the Active side they are going at the 
same pace. We go from 507 to 542. So the numbers are equal. So 
we are not putting more into the Active Component. It is an 
equal spread.
    Our concern though is, as you have mentioned, it is going 
to affect all COMPOs, the effects of sequestration and the 
fiscal constraints, because we are going to have to extend all 
these programs out to the right.
    Ms. Duckworth. So let's build on that. I want to commend 
the Army for establishing a firm requirement for the Improved 
Turbine Engine Program and for the successful completion of the 
material development decision. I think that what you have done 
to develop and integrate the engine provides a heck of a lot 
more engine power, I think 50 percent more power, a lot more 
fuel savings, and it is really a significant combat multiplier 
and good for cost savings as well.
    Can you please explain the benefits that this engine as an 
example looking out into the future will bring to the current 
and next-generation aircraft, especially in support of the air-
sea doctrine and the pivot to the Asia-Pacific region?
    General Barclay. Yes, ma'am, we are committed to the new 
ITEP [Improved Turbine Engine Program] engine. As you 
mentioned, it is going to get us somewhere between a 20- to 30-
percent fuel savings, which is huge when you look at the burn 
rate that the platforms, rotor wing platforms do. But it also 
brings us close to a 40-percent decrease in sustainment costs. 
So when you combine the fuel savings and the sustainment costs 
to the added power that you get, that we have been flying 
airplanes, the one you flew, very underpowered because we kept 
adding on to them, this now brings the power back.
    The goal is to put the ITEP engine into the current Apache 
and Black Hawk fleet and it will bring them back to their full 
capabilities. But also it is linked to the future and the 
future vertical lift medium because that is an engine that can 
take us to that next level as we are looking into the late 
thirties-early forties of the next variants that are going to 
possibly come in and replace our aging lift and attack 
platform.
    So we see that as a bridging gap, but again it is the close 
in savings we will get with the energy savings and sustainment 
savings that are very important to us.
    Ms. Duckworth. Well, I actually flew the oldest flying 
Black Hawk in the Army inventory, a 1976 model, fourth off the 
production line. It is still in Kuwait flying today. So I 
understand the long-term lifespan of the aircraft.
    In the military equipment there is some great equipment. I 
just want to make sure that as we modernize, we are keeping an 
emphasis in doing it across the force in order to maintain the 
operational force in the Guard and Reserve.
    Thank you, gentlemen.
    Mr. Turner. Thank you.
    Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman. Thank you gentlemen 
for being here today.
    A little question on the personal protection. We had 
conversations about lightening the load. I just wondered if you 
could bring me up-to-date on where we are with some of the 
modernization as far as personal protection equipment. I know 
that when I deployed, midway through the tour we got new SAPI 
[Small Arms Protective Insert] plates because they were newer 
and better and lighter, and I just wondered where we are with 
that. And maybe in relation to Mr. Runyan's question too about 
TBI, have we made changes within the helmet recently?
    General Phillips. Sir, that is a great question. I will 
take that and ask General Barclay to add his comments. But we 
have made tremendous strides in personal protective equipment, 
and probably the greatest stride has been in body armor. We 
have made to date about 16 improvements to body armor, the last 
one being female body armor that I will talk about in a second. 
But we have made significant improvements to enhance 
protection, at the same time trying to reduce the load that is 
on the soldiers that are out there that are wearing this 
equipment, and tied that into sensors that soldiers now have in 
their helmets, the Advanced Combat Helmet. We are gaining a lot 
of knowledge on how to improve helmets. We are working with the 
Marine Corps on an enhanced combat helmet. It is under 
development still, but we think it is going to be a few ounces 
lighter and go beyond what we have today, which is 9 millimeter 
protection within an Advanced Combat Helmet. It will increase 
that level of protection at the same or lower weight. Also we 
think it is going to protect more importantly against trauma, 
trauma to the head. So we are working those pieces very hard.
    One thing that we have done is pelvic protection. We have 
bought about 250 outer garments and inner garments that 
soldiers wear today, especially down south in Kandahar where 
the fighting is mostly on the ground, and in RC-East [Regional 
Command-East] as well. But we have had tremendous stories from 
soldiers that have worn the pelvic protection system on how it 
has saved their lives.
    I got some information from an EOD [Explosive Ordnance 
Disposal] sergeant recently who was wearing it and it probably 
saved his life. He thinks it did. He lost part of his legs, but 
it saved it from going up into his renal artery where he 
probably would have bled out. It is important that we continue 
to improve protection.
    If I can mention female body armor for a second, we have 
really made great strides. We have given 17 of those sets to 
the 101st and 3rd ID [Infantry Division] soldiers. Many of them 
are in combat operations today. It is one of the world's best 
body armor.
    I want to quote Second Lieutenant Chelsie Adams from 3rd 
ID, and I quote her. ``It is awesome. I have actually got full 
mobility. I am not sure if it is a late birthday present or a 
pre-Christmas present, but it is the best gift ever.'' So we 
are going to work hard for Chelsie Adams and for all our 
soldiers to improve body armor.
    I just met Julie Herbert, who is a part of this committee, 
this morning. We had Army Day here yesterday on the Hill and 
she actually put on and was wearing the female body armor, but 
before that she put the male body armor on. And the comments 
that she just gave us about how it allows you freedom of motion 
and action is exactly what we are doing for our female 
soldiers.
    So, sir, thank you for supporting our program with 
protective equipment.
    Dr. Wenstrup. Thank you. I yield back.
    Mr. Turner. Mr. Garamendi.
    Mr. Garamendi. Thank you, Mr. Chairman, and Generals, thank 
you for your service and for the testimony today.
    I have been focusing on ISR [Intelligence, Surveillance, 
and Reconnaissance] and the priorities that you laid out are 
directly related to the ISR systems. It seems to me as though 
there is a lack of coordination across the various departments, 
with the Air Force abandoning some pieces of equipment that 
appear to be necessary for some of the things you are doing. So 
my concern here is the integration of these systems, if your 
priority is to provide these networkings, the squad 
communications systems and the like, and how does it all work 
together, and are you in communication with the Air Force with 
its UAVs [Unmanned Aerial Vehicle] or manned and satellites and 
all of that. Are we coordinated?
    General Barclay. Sir, we are coordinated, but, again, there 
is two separate missions. The Army UAVs, UASs [Unmanned 
Aircraft System], again, those are at the operational tactical 
level and we are focused at the division commanders' assets 
which are the Gray Eagles. You have the Shadow assets which are 
the brigade commanders and the tank commanders can use that. 
And then down at the company battalion we have the handheld 
launched Raven. And we look at it from a reconnaissance, 
surveillance, target acquisition, and they are also linked into 
our network architecture, which has all the ISRs. So while they 
are out there doing it, they are doing several different 
missions, but our main focus is reconnaissance, surveillance, 
target acquisition.
    In the Air Force again they have made some decisions on 
some of their other platforms, and I won't question them on 
that. But, again, our perspective on how we look at integrating 
those, it is very important to us that we do that.
    We also, because of our manned-unmanned, we are working 
very hard now with a manned-unmanned teaming to where we have 
both control and hand-offs with our rotor wing platforms in the 
Apache and Kiowa Warrior where they can control a hand-off. 
They can even do firing. You can fire off a UAV directed by a 
manned platform. But it is that manned-unmanned teaming where 
we are seeing great synergy and it brings a lot to the 
operational and tactical commander.
    Mr. Garamendi. How dependent are you on the Air Force 
assets?
    General Barclay. Sir, these are all Army assets ourselves. 
At the higher level where you are doing the intelligence aspect 
of that, we are in a joint environment. And if we deploy in, 
that division commander comes in with his Gray Eagle assets, if 
those Gray Eagle assets are not in a direct fight, they are 
available to be used by the joint, so the Air Force could use 
ours just like we can use theirs. So, yes, we are integrated, 
and it is a joint fight. But, again is the priorities of 
missions, how you allocate those. And if they are in the 
theater, they are available.
    Mr. Garamendi. I am not at all sure that they are 
integrated. The Air Force is shutting down some of its 
platforms, some of the Global Hawks [RQ-4 surveillance unmanned 
aerial vehicle].
    General Barclay. Sir, from an Army perspective, ours are 
integrated. They are available to be used in the theater they 
are in by the commanders based on the priorities set by the 
commanders, from an Army's perspective. I can't answer to the 
Air Force's perspective on the decisions they are making, sir.
    Mr. Garamendi. Well, their decisions may be of utmost 
importance to you if you are depending upon those particular 
pieces of equipment to provide ISR; for example, the Global 
Hawks or the satellites and the U-2s [``Dragon Lady'' 
reconnaissance aircraft] or whatever the other assets are. I am 
concerned about that because the Air Force is shutting down 
some of those systems that have been critical for the Army's 
operations. So I am going to pursue this a little further.
    One other question, General Phillips. In answer to the 
chairman's question about tanks, you said there are more tanks 
than you need. Could you expand on that?
    General Phillips. Sir, very quickly, the Army has already 
met or will by June of 2013 have met what we call the Army 
Acquisition Executive for tanks. And we have done great work at 
JSMC to deliver the Army's tanks. The average age is 3 to 4 
years. So the Army really has the two best tanks in the world, 
the M1A2 SEP [System Enhancement Package] and the M1A1 AIM 
[Abrams Integrated Management] tank, both just absolutely world 
class. We have met our full commitment to the Army's 
requirements. That was the reason for my comment, sir, in June 
of this year I should have stated.
    Mr. Garamendi. Thank you. I yield back.
    Mr. Turner. Mr. Gibson.
    Mr. Gibson. Thank you very much. Appreciate it, Chairman, 
and the gentlemen for their leadership and family sacrifices.
    My question has to do with the individual carbine. I have 
read the report. I see where we are with that. I guess what I 
am looking for is assurances that our noncommissioned officers 
are engaged in this process. This was such an emotional issue 
for--as an infantry leader for many years, and I am looking for 
your assurances that we are getting their input on this and 
then when the ultimate decision is made that there will be a 
commitment to match ``ammo'' [ammunition] whatever individual 
carbine that we design.
    General Phillips. Sir, I can assure you that our soldiers 
are absolutely involved in the process, and through our PEO 
Soldier and our PM [Project Manager] within that organization 
who is running this, they are making sure that they have a 
holistic review of all the potential weapons that could be the 
next individual carbine, but we take that competition very 
seriously. The Army is still considering the way forward with 
the individual carbine as we look and analyze what industry 
could potentially provide. So, sir, there is more to come on 
the final decision.
    Mr. Gibson. And I appreciate that, and you know, given how 
emotional this topic can be, you know, I appreciate your 
deliberative nature and the way you are approaching this and 
how engaged it is, and how important it is to get our enlisted 
personnel involved in this.
    And then do you care to comment at all about--and it may 
very well be outside purview, but just the match ammunition 
that would go with whatever decision you make.
    General Phillips. Sir, I am not exactly sure what you mean 
by that, but I could add this comment that we have the M855A1, 
essentially a brand-new 556 [5.56mm] ammunition that we 
currently use, is in the fight today in Afghanistan. It 
provides incredible increased lethality over the normal 855 
round, and the amount of lethality that it provides gets it 
very close to a 762 [7.62mm ammunition] in terms of capability.
    Since the early days of the Iraq war when you used to hear 
about through and throughs and they would pull the trigger and 
someone would fall down or not fall down, they would keep 
coming, with this round that essentially stops that. When you 
hit someone with this round, they essentially go down, and the 
feedback we get from our soldiers time and time again in combat 
that are using this new round is exactly that. It is providing 
great lethality for our soldiers and our squads on the ground, 
sir.
    Mr. Gibson. I thank you for that, and I yield back, Mr. 
Chairman.
    Mr. Turner. Thank you.
    Mr. Barber.
    Mr. Barber. Thank you, Mr. Chairman, and thank you both, 
Generals, for being here this morning. I grew up in an Air 
Force family, but in fact last 7 years I have had an 
opportunity to work closely with our men and women in the Army 
down at Fort Huachuca, an incredible facility as I think you 
probably know, where we do a lot of the UAF [United States Air 
Force] training, and Congressman Garamendi asked a question 
that I also am concerned about, and that is whether the United 
States Air Force is really the responsible party, if you will, 
for both acquiring, managing and making available UAS or UAVs, 
how is that going to fit in to your strategy to make sure that 
our combat commanders have what they need? For example, you 
know, the UAS that is the Global Hawk is a very valuable tool 
at a high altitude and low as well. As we go forward and we 
downsize and get out of Afghanistan and we have to maintain 
this capability, how do we make sure that the branches are 
talking to each other or collaborating to make sure that we 
have the capability going forward for our ground troops, the 
men and women that you are responsible for?
    General Phillips. Sir, I will take the first part of that 
and ask General Barclay to weigh in as well.
    The Army owns really four key UAVs. I will add a fifth one 
to it as well, but the Gray Eagle, which is critical for an ISR 
capability plus an attack capability as well. The Shadow UAV, 
the Hunter UAV, the Raven UAV, and we have actually brought 
some Pumas made by AeroVironment as well. They make the Raven 
also that are going downrange. The Army owns all of those UAVs, 
and we operate them as a part of the joint force. And we work, 
as General Barclay said earlier, with the joint force, with OSD 
in various forums to make sure that we have an integrated 
strategy going
forward.
    The decision for Global Hawk that the Air Force may make is 
simply an Air Force decision. We may have some level of 
equities in those decisions, but at the end of the day it is 
the Air Force, and I would just state that they would have to 
answer to what they are trying to do with that system in 
particular.
    General Barclay. Sir, as I stated, the UASs are a critical 
part of our operational aspect of how we are going to fight in 
the future. It is also how we fight today. We have the first 
manned/unmanned teaming unit, aviation unit with 101st in 
theater in Afghanistan, where we are teaming the Shadows with 
the Apache. I mean, they are doing that now, working out the 
tactics, techniques and procedures on how we are going to do 
that in the future.
    So again, all these platforms are very important to how we 
see us operating in any theater or any environment, but again, 
they are divisional organic assets that belong to that division 
commander, brigade commander and battalion commander. You know, 
they are not--their first priority is because it is part of 
their organic table of organization and equipment that belongs 
to that unit for them to use in the fight. So it is a very 
important aspect of our fight in the future.
    Mr. Barber. And obviously it has been a great asset in the 
current wars that we have been fighting. I want to speak 
specifically, though, to Gray Eagle, which I acknowledge has 
been an incredibly useful tool for combat commanders. I 
observed that in the acquisition plans you have reduced by four 
the number of Gray Eagles that you are going to be acquiring. 
Can you say why that is the case, unless I misunderstood the 
plan?
    General Phillips. Sir, I will start that. I am not sure 
what you are referring to in terms of the number of four 
reductions. We will do our research on that and get back to 
you, but I would like to talk to the value of the Gray Eagle. 
We bought 100 systems to date. Of those 100 systems, 20 of 
those are operating in combat today and doing a tremendous job 
in terms of intelligence, surveillance, reconnaissance, and 
attack in support of Army forces, and not just Army, but joint 
forces on the ground. Gray Eagle is absolutely critical. You 
may know that we just passed an initial operational test and 
evaluation with Gray Eagle. It is the first UAS--in all of OSD, 
the first UAS to have been defined as effective and suitable. 
And so we are very proud of what this aircraft is doing. We are 
looking forward to a full-rate production decision. A milestone 
is coming up, and we are going to continue to procure them and 
outfit them within all 10 divisions. General Barclay just said 
that is a key divisional asset that will be with our forces.
    Mr. Barber. Just in the time I have left, just let me 
clarify what I meant to say in regards to the Gray Eagle. It is 
a reduction over what you purchased last year, and as I think 
about--obviously we are winding down, but these aircraft, like 
any asset, have wear and tear, so going forward, is that really 
what you think you need to make sure we are ready for any 
contingency?
    General Phillips. Sir, what I would just state that what we 
need is a full contingent of Gray Eagles that would outfit our 
10 divisions with maybe some spare assets available as 
necessary. But the reduction, I don't know, I have to research 
this. Some of that reduction might be due to sequestration.
    [The information referred to can be found in the Appendix 
on page 51.]
    General Phillips. I will give you an example with Apache 
aircraft. We were going to buy 48 this year. Now we are down to 
42. As we look at the impacts of sequester on every 
modernization program, and it impacts every one, some to a 
lesser extent, some more, some of those buys are going to have 
to be scaled back because of the impact of sequestration.
    Mr. Turner. Gentlemen, you need to conclude, please.
    Mr. Barber. Thank you, gentlemen. I yield back. I have 
exceeded my time.
    Mr. Turner. Thank you. Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman. And it is a pleasure to 
be here with you today, and thank you for coming. And I just on 
behalf of my family, I want to thank you both for your service 
and sacrifice, but that of your families as well, so we 
appreciate all that you do.
    General Barclay, I haven't--I came right after you, but I 
know Fort Rucker is near and dear to your heart and I, you 
know, appreciate all of the focus on Army aviation and how 
important it is for what we are doing now and what we are going 
to be doing in the future, and your successors there have 
helped me understand the challenges, and I know even now today 
with the sequester that you were just talking about, it even 
presents greater challenges on what the future vertical lift 
program might look like.
    But from what I have learned, and this is for both of you, 
what I have learned in my course of spending time down at 
Rucker and seeing, you know, these challenges firsthand, we 
have an opportunity with the future vertical lift program to 
potentially replace about 90 percent of our medium lift. Am I 
right about that?
    General Barclay. Yes, ma'am. It is close. Somewhere between 
the 75 and 80 percent, you know, but with the Apaches and the 
Black Hawks, that is really----
    Mrs. Roby. Right.
    General Barclay. That medium variant, both attack and lift.
    Mrs. Roby. And so what I keep hearing is that that needs to 
be refocused. We have other challenges with other aircraft that 
may be close to the end of their life, but if we are going to 
really hone in and focus on the future of Army aviation and 
what it looks like, then we need to be investing those dollars 
now. And I know you all touched on those with some of the other 
comments that Ms. Duckworth had, so I don't want to repeat, but 
I just--I want to really know the Army's commitment to the 
future vertical lift because of how high that percentage is.
    General Barclay. Ma'am, we are committed to future vertical 
lift. As you know, it is a joint program. It is not just an 
Army program, so it has all the other Services' buy-in, too. So 
this is a joint program. It is important, as you mentioned, it 
will replace about 70--between 75, 80 percent of our fleet in 
the future.
    The timeline, though, is in the out years. Again, we are 
currently fielding new Echo model Apaches. We are fielding new 
Mike model Black Hawks, and as we look to the future and have a 
chance to look at technology and develop and get something, 
which is truly a leap ahead, not just a little bit of added 
power or a little bit more endurance but truly a leap ahead on 
how we plan on operating, we are looking somewhere probably in 
the mid to late '30s before that would come on board, and that 
then is tied to our current modernization plan because with 
aviation, you know, we look out really, we are looking 
somewhere between 40 and 50 years out because you look at the 
lifespan and then you have to look at your fleets as you are 
sequenced in, so it is a strategy that is stretched out long 
term. But to answer the bottom question, we are committed to 
the future vertical lift.
    Mrs. Roby. And I am glad to hear you say that. I think our 
challenge here in the House of Representatives and on this 
committee, is to convince our colleagues about the importance 
of these dollars today because of the link of the amount of 
time that it takes to develop this. And when you are dealing 
with all of these fiscal restraints, including the sequester 
and the heavy hit to our military, we have got a challenge on 
our end related to convincing our colleagues about how 
important this is.
    General Phillips. Ma'am, if I could just add. As 
Congresswoman Duckworth just said, we have a material 
development decision already made. We have an approved 
requirements document for future vertical lift. It is a joint 
program. We are going forward for a milestone A decision. We 
have significant science and technology funds invested in the 
future of vertical lift. The Army is committed to future 
vertical lift, as General Barclay just stated.
    Mrs. Roby. Well, I hope we all can stay committed to that 
because of the importance. Again, thank you both for being here 
and thank you for your service, and I yield back.
    Mr. Turner. Excellent points.
    Turning to Mr. McIntyre.
    Mr. McIntyre. Thank you. Thank you, gentlemen, for your 
service. I have a very specific question I want some help in 
understanding, and I think the committee will benefit from. The 
Abrams tank power train has been identified by the Army as one 
of the critical upgrades required to extend the life of the 
Abrams tank to 2045.
    Two years ago, the Secretary of the Army testified that 60 
percent of the maintenance cost for the Abrams tank is related 
to the engine and transmission and that improving the power 
train, in improving it, the Army would achieve 17-percent 
improvement in fuel efficiency. In fiscal year 2012, this 
committee supported a $47.8 million reprogramming request from 
the Army that adopted commercial-based improvements to insert a 
new dual centrifugal compressor that would be integrated within 
the existing total integrated engine revitalization program. 
This committee understands that this upgrade will provide the 
Army $1.6 billion in maintenance and fuel savings as well as 
drive additional workload into Anniston Army Depot.
    What is the funding status of this program in the fiscal 
year 2013 enacted budget and in the fiscal year 2014 proposed 
Administration's budget?
    General Phillips. Sir, I don't know the answer to that. We 
will have to get back with you with specifics. What I would add 
is that the ECP program that we have for Abrams is critically 
important to the Army, and it is really buying back space, 
weight and power and cooling. So I am confident that that is a 
part of the enhancements that we will make to Abrams where we 
want to put that work back into not only Anniston but JSMC 
Lima, Ohio, as well in around the 2018/2019 timeframe. I will 
get you specifics. We will get you specifics on that in 
particular.
    [The information referred to can be found in the Appendix 
on page 51.]
    General Barclay. Sir, again, it is included in the 
engineering change proposals and incremental improvements. I 
just don't have the dollars amounts in front of me by own 
individual programs, but we will take that for the record and 
get it back to you, sir.
    Mr. McIntyre. That would be great. It would be for the 2013 
enacted budget and the 2014 proposed budget. So we will see 
where that is and make sure we are getting those savings.
    Thank you. Thank you, Gentlemen. Thank you, Mr. Chairman.
    Mr. Turner. Gentlemen, thank you so much. I appreciate your 
work with the committee so that we can both understand the 
issues that we have before us and also help us in formulating, 
as we move forward, on the subcommittee's mark.
    Thank you again. We will be adjourned.
    [Whereupon, at 11:45 a.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 26, 2013

=======================================================================




=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 26, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 80771.001
    
    [GRAPHIC] [TIFF OMITTED] 80771.002
    
    [GRAPHIC] [TIFF OMITTED] 80771.003
    
    [GRAPHIC] [TIFF OMITTED] 80771.004
    
    [GRAPHIC] [TIFF OMITTED] 80771.005
    
    [GRAPHIC] [TIFF OMITTED] 80771.006
    
    [GRAPHIC] [TIFF OMITTED] 80771.007
    
    [GRAPHIC] [TIFF OMITTED] 80771.008
    
    [GRAPHIC] [TIFF OMITTED] 80771.009
    
    [GRAPHIC] [TIFF OMITTED] 80771.010
    
    [GRAPHIC] [TIFF OMITTED] 80771.011
    
    [GRAPHIC] [TIFF OMITTED] 80771.012
    
    [GRAPHIC] [TIFF OMITTED] 80771.013
    
    [GRAPHIC] [TIFF OMITTED] 80771.014
    
    [GRAPHIC] [TIFF OMITTED] 80771.015
    
    [GRAPHIC] [TIFF OMITTED] 80771.016
    
    [GRAPHIC] [TIFF OMITTED] 80771.017
    
    [GRAPHIC] [TIFF OMITTED] 80771.018
    
    [GRAPHIC] [TIFF OMITTED] 80771.019
    
    [GRAPHIC] [TIFF OMITTED] 80771.020
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             April 26, 2013

=======================================================================

      
            RESPONSES TO QUESTIONS SUBMITTED BY MS. SANCHEZ

    General Barclay and General Phillips. The Army's strategy for 
acquiring Joint Tactical Radio System (JTRS) Handheld, Manpack and 
Small Form Fit (HMS) radios under full and open competition has taken 
time to properly develop and coordinate within the Department of the 
Army and Department of Defense, as well as with industry partners. 
However, I can affirm the Army's commitment to compete the procurement 
of these critical radios among all possible vendors.
    The Army is currently coordinating the technical radio acquisition 
strategy with the Under Secretary of Defense (Acquisition, Technology, 
and Logistics). Upon approval of the acquisition strategy, the Army 
will submit written certification to the congressional defense 
committees that the acquisition strategy for full rate production of 
the JTRS HMS radios includes full and open competition in accordance 
with National Defense Authorization Act for Fiscal Year 2012. [See page 
12.]
    General Barclay and General Phillips. The Defense Acquisition Board 
(DAB) review held in August 2012 was briefed on the Northstar 
bankruptcy and resulting transmission delay issue. This DAB was chaired 
by Ms. Katrina McFarland and attended by the principal staff members 
supporting the Under Secretary of Defense for Acquisition, Technology 
and Logistics. The decision to work with the prime and subcontractors 
to use a rotatable pool and a payment withhold was made within the 
Project Management and Program Executive Officer leadership with 
Assistant Secretary of the Army, Acquisitions, Logistics and Technology 
concurrence, to preclude a production disruption and a significant cost 
increase for U.S. and foreign Apache procurements. The Army, in 
coordination with OSD, made the right decision to sustain this 
important industrial base capability consisting of over 300 industry 
partners and thousands of workers. [See page 12.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. BARBER
    General Barclay and General Phillips. The Army had requested 19 
aircraft and associated ground support equipment in the Fiscal Year 
2013 (FY13) President's Budget (PB) request. The Appropriations Act 
funded the 15 aircraft and associated ground support equipment. The 
FY14 President's Budget requests 15 aircraft and associated support 
equipment. With the late appropriation, the Army did not have an 
opportunity to modify the PB14 request to adjust for the loss of four 
aircraft and associated ground support equipment from the FY13 
Appropriation. During the budget briefings to the Professional Staff 
Members, the Army requested committee support to permit the Army to 
purchase four additional aircraft with FY14 funding by shifting some 
other requirements into FY15. The House Armed Services Committee has 
supported that request. These adjustments will allow us to complete our 
purchase of 152 aircraft and associated ground support equipment that 
supports the Chief of Staff, Army's equipping strategy. [See page 21.]
                                 ______
                                 
             RESPONSE TO QUESTION SUBMITTED BY MR. MCINTYRE
    General Barclay and General Phillips. The Fiscal Year (FY) 2011 
reprogramming request of $47.8 million to start an Abrams tank Fuel 
Efficiency Improvement (FEI) effort was supported by the House Armed 
Services Committee. However, the request was never implemented because 
it was denied by the Senate Armed Services Committee as a new start.
    Current Status of the Abrams FEI: The Abrams FEI is not currently 
an approved or funded program.
    The Product Manager for Abrams is actively supporting an Army 
Capabilities Integration Center (ARCIC)-led cost/benefit analysis (CBA) 
for a more fuel-efficient Abrams power train. The alternatives 
currently being considered are Transmission FEI only; Full Turbine 
Power Train (engine and transmission) FEI; General Dynamics Land System 
diesel power train (for potential Ground Combat Vehicle [GCV] 
commonality); BAE Hybrid Electric Diesel (for potential GCV 
commonality); L3 1790 Diesel; and the Common Aviation Turbine program. 
The CBA is expected to be completed in the Fourth Quarter of FY 2013.
    The Army is keenly aware of the benefits of an Abrams FEI effort 
and will review opportunities to pursue an executable FEI program once 
the ARCIC CBA is
complete. [See page 23.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 26, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LOBIONDO

    Mr. LoBiondo. An article was published last week stating the Army 
is accepting incomplete Apaches off the Boeing production line. How can 
this be reasonable? Can you comment on this situation and if this is 
not the case, provide an update on where the Apache program sits with 
production?
    General Phillips. I am familiar with the article you mentioned. The 
article was not accurate. It is true, however, that the Army withholds 
approximately $900,000 per aircraft from Boeing and allows them to 
remove the improved drive system (the transmission) to support 
subsequent production. Boeing pays for all the extra labor and the 
storage costs of the aircraft. This process is a temporary one that 
supports the recovery of drive system supply caused by the Northstar 
bankruptcy in June 2012, after several years of financial difficulties. 
Northstar is Boeing's supplier of the improved E-model drive system and 
owns the process methods for manufacturing split face gears, which is a 
critical technology that has never been employed in any prior aircraft. 
We believe that it is in the best interest of the Army to work with 
Boeing and Northstar during this recovery period. Had the Army not 
developed this temporary adjustment to the final delivery process, the 
AH-64E production line would have stopped last year. This work-stoppage 
would have far reaching impacts on other suppliers, impacting the 
industrial base across 41 states, resulting in 400 layoffs within 
Boeing alone and an estimated 20 percent workforce reduction across the 
entire Apache supply base. This would have had a significant impact to 
the cost of future U.S. and foreign Apache procurements and would have 
resulted in production impacts to Boeing, Lockheed Martin, Longbow 
Limited and Northrop Grumman. It is important to note that we do not 
accept incomplete Apaches. Each AH-64E Apache that comes off the Boeing 
production line is entirely complete and goes through a series of tests 
in accordance with the government Acceptance Test Procedures (ATP). The 
Army only accepts aircraft that have successfully completed all of the 
ATP. The Army is meeting all AH-64E fielding requirements and met First 
Unit Equipped within the program threshold in May 2013.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. DUCKWORTH
    Ms. Duckworth. Recognizing the importance of an Operational Reserve 
force, can you speak to how you will implement concurrent modernization 
of Guard and Reserve equipment inventories at the same rate as Active 
Duty?
    General Barclay and General Phillips. In accordance with Department 
of Defense Directive 1200.17 Managing the Reserve Components as an 
Operational Force, the Army ensures both the Army National Guard (ARNG) 
and United States Army Reserve (USAR) forces meet operational readiness 
requirements as identified by the President and the Secretary of 
Defense. Army leadership recognizes that the reserve components play a 
critical role in meeting Army force requirements and that the reserve 
components are an essential part of the Total Force; as such, the 
reserve components are modernized in accordance with the Army's 
modernization strategy.
    The pace and scope of equipment modernization for the Army is 
defined by the Army Equipment Modernization Strategy, and equipment 
programming priorities are addressed by the Army as a total force, 
factoring in overall equipment age, interoperability, and employment 
needs, regardless of component. The Army ensures reserve component 
equipping requirements are addressed in all equipment distribution and 
modernization plans.
    Over the past ten years as a result of following the Army Equipping 
Strategy, the reserve components have attained near parity for 
equipment on hand (EOH) and equipment modernization levels as the 
active component (AC). The EOH levels for individual components as of 
December 2012 are: the AC 91 percent, ARNG 89 percent, and the USAR 86 
percent. The modernization levels for the individual components are the 
AC 72 percent, ARNG 71 percent, and the USAR 65 percent.
    Ms. Duckworth. I would like to commend the Army for establishing a 
firm requirement for the Improved Turbine Engine Program (ITEP) and for 
successful completion of the Material Development Decision. Developing 
and integrating an engine that provides a 50-percent increase in engine 
power and a 25-percent fuel savings is a significant combat multiplier. 
The additional benefits of longer useful life, improved maintainability 
and reduced costs for the Army's current and next-generation vertical 
lift aircraft is a significant endeavor. Can you please explain the 
benefits this engine will bring to the current and next generation 
fleet of helicopters in support of Air Sea doctrine and the pivot to 
Asia Pacific region?
    Value/Operational Benefits: With a declining defense budget, 
particularly in the Research & Development accounts, I am concerned we 
are mortgaging the Army's future requirements and capabilities to 
address short-term needs. The Improved Turbine Engine Program (ITEP) 
seems like one program where the investment is leveraged to address the 
both current Black Hawk and Apache helicopter requirements and the 
next-generation Future Vertical Lift helicopter. Can you please explain 
the value the ITEP engine brings to meet current and future operational
requirements?
    General Barclay and General Phillips. The Improved Turbine Engine 
Program (ITEP) engine provides a 3000 shaft horsepower (shp) turbo 
shaft to improve lift, increase range, minimize fuel consumption, and 
decrease maintenance costs for Black Hawk and Apache rotary-wing 
aviation platforms. The goals of the Science and Technology project 
are: 1) a 25-percent reduction in Specific Fuel Consumption at 3000 
shp; 2) a 65-percent improvement in shp to weight (shp/wt); 3) a 20-
percent improvement in design life; and 4) a 35-percent reduction in 
production and maintenance cost. Traditionally, aircraft gain 77 pounds 
a year in weight, and the current fleet is expected to operate until 
2060. The ITEP engine ensures that the aircraft maintain current flight 
capability and achieve improved performance in high/hot operations. The 
largest operational impact is that aircraft equipped with an ITEP 
engine will be able to operate where the altitude is over 6,000 feet 
and the temperature is above 95 degrees, while retaining a 500 feet per 
minute vertical climb
capability.
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MRS. ROBY
    Mrs. Roby. The Army is already planning a force structure drawdown 
to meet budget reduction targets. General Odierno recently testified 
that he anticipates the Army may need to reduce its numbers by another 
100K soldiers if sequestration is not avoided. As you bring troops and 
equipment back from theatre, you have a unique opportunity to shape 
force structure in a way that best meets mission requirements, but also 
leverages assets that can reduce the burden on your O&M budgets.
    Will your Aviation Modernization plan include a fleet mix analysis 
the gives weight to fleet structure that maximizes efficiency and 
budgetary impacts?
    General Barclay and General Phillips. Our Aviation Modernization 
Plan will continue to provide for a fleet mix that balances current and 
future approved aviation force structure requirements with available 
resources to provide needed capabilities and maximize efficiency.
    Mrs. Roby. The Abrams Tank power train has been identified by the 
Army as one of the critical upgrades required to extend the life of the 
Abrams tank to 2045. Two years ago, the Secretary of the Army testified 
that 60% of the maintenance costs for the Abrams tank is related to the 
engine and transmission and that improving the power train, the Army 
would achieve 17% improvement in fuel efficiency. In Fiscal Year 2012, 
this committee supported a $47.8 million reprogramming request from the 
Department of Army that adopted commercial-based improvements to insert 
a new dual centrifugal compressor that would be integrated within the 
existing Total Integrated Engine Revitalization program. The committee 
understands this upgrade will provide the Army $1.6 billion in 
maintenance and fuel savings as well as drive additional workload into 
Anniston Army depot.
    What is the funding status of this program in the FY 2013 enacted 
budget and the FY 2014 proposed President's budget?
    General Barclay and General Phillips. The FY 2011 reprogramming 
request of $47.8 million to start an Abrams tank Fuel Efficiency 
Improvement (FEI) effort was supported by the House Armed Services 
Committee. However, the request was never implemented because it was 
denied by the Senate Armed Services Committee as a new start.
    Current Status of the Abrams FEI: The Abrams FEI is not currently 
an approved or funded program.
    The Product Manager for Abrams is actively supporting an Army 
Capabilities Integration Center (ARCIC)-led cost/benefit analysis (CBA) 
for a more fuel-efficient Abrams power train. The alternatives 
currently being considered are Transmission FEI only; Full Turbine 
Power Train (engine and transmission) FEI; General Dynamics Land System 
diesel power train (for potential Ground Combat Vehicle [GCV] 
commonality); BAE Hybrid Electric Diesel (for potential GCV 
commonality); L3 1790 Diesel; and the Common Aviation Turbine program. 
The CBA is expected to be completed in the Fourth Quarter of FY 2013.
    The Army is keenly aware of the benefits of an Abrams FEI effort 
and will review opportunities to pursue an executable FEI program once 
the ARCIC CBA is
complete.
                                 ______
                                 
                  QUESTION SUBMITTED BY MRS. WALORSKI
    Mrs. Walorski. The Abrams Tank power train has been identified by 
the Army as one of the critical upgrades required to extend the life of 
the Abrams tank to 2045. Two years ago, the Secretary of the Army 
testified that 60% of the maintenance costs for the Abrams tank is 
related to the engine and transmission and that improving the power 
train, the Army would achieve 17% improvement in fuel efficiency. In 
Fiscal Year 2012, this committee supported a $47.8 million 
reprogramming request from the Department of Army that adopted 
commercial-based improvements to insert a new dual centrifugal 
compressor that would be integrated within the existing Total 
Integrated Engine Revitalization program. The committee understands 
this upgrade will provide the Army $1.6 billion in maintenance and fuel 
savings as well as drive additional workload into Anniston Army depot. 
What is the funding status of this program in the FY 2013 enacted 
budget and the FY 2014 proposed President's budget?
    General Phillips. The FY 2011 reprogramming request of $47.8 
million to start an Abrams tank Fuel Efficiency Improvement (FEI) 
effort was supported by the House Armed Services Committee. However, 
the request was never implemented because it was denied by the Senate 
Armed Services Committee as a new start.
    Current Status of the Abrams FEI: The Abrams FEI is not currently 
an approved or funded program.
    The Product Manager for Abrams is actively supporting an Army 
Capabilities Integration Center (ARCIC)-led cost/benefit analysis (CBA) 
for a more fuel-efficient Abrams power train. The alternatives 
currently being considered are Transmission FEI only; Full Turbine 
Power Train (engine and transmission) FEI; General Dynamics Land System 
diesel power train (for potential Ground Combat Vehicle [GCV] 
commonality); BAE Hybrid Electric Diesel (for potential GCV 
commonality); L3 1790 Diesel; and the Common Aviation Turbine program. 
The CBA is expected to be completed in the Fourth Quarter of FY 2013.
    The Army is keenly aware of the benefits of an Abrams FEI effort 
and will review opportunities to pursue an executable FEI program once 
the ARCIC CBA is
complete.

                                  <all>

</pre></body></html>
